RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20Minerva Surgical, Inc.,
Petitioner,
v.
Hologic, Inc., Cytyc Surgical Products, LLC,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Robert N. Hochman, certify
that the Petition for a Writ of Certiorari in the foregoing case contains 8,707 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 30, 2020.
/s/ Robert N. Hochman
ROBERT N. HOCHMAN
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000

